No.20-449

INTHE

&upreme Court of tbe llniteb &tattf
DEPARTMENT OF HOMELAND SECURITY, et al.,
Petitioners,

v.
NEW YORK, et al.,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SECOND CmCUIT

BRIEF IN OPPOSITION
FOR THE STATES OF NEW YORK, CONNECTICUT,
AND VERMONT, AND THE CITY OF NEW YORK

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I certify that the document contains
8,598 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 9, 2020.

Wilson-Epes Printing Co., Inc.

